                   U.S. Department of Agriculture

                      Office of Inspector General
                                 Northeast Region




          Audit Report

         Followup on Prior
  Recommendations for Civil Rights
Program and Employment Complaints




                         Report No. 60016-01-Hy
                                September 2005
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                          Washington D.C. 20250




September 8, 2005


REPLY TO
ATTN OF:       60016-01-Hy

TO:       Sadhna G. True
          Director
          Office of Civil Rights

ATTN:     Calvin Gibson
          Special Assistant to Director
            for Civil Rights

FROM: Robert W. Young /s/
      Assistant Inspector General
        for Audit

SUBJECT:       Followup on Prior Recommendations for Civil Rights


This report presents the results of our audit of the Office of Inspector General’s (OIG) followup
on OIG’s prior recommendations for the Office of Civil Rights program and employment
complaints. Your response to the official draft, dated August 5, 2005, is included as exhibit C.
Excerpts of your response and the OIG’s position are incorporated into the Findings and
Recommendations section of the report. Based on your response, we were able to reach
management decision on the report’s three recommendations. Please follow your agency’s
internal procedures in forwarding documentation for final action to the Office of the Chief
Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Followup on Prior Recommendations for Civil Rights Program and Employment
Complaints (Audit Report No. 60016-01-Hy)

Results in Brief                     This report presents the results of the Office of Inspector General’s (OIG)
                                     followup on OIG’s prior recommendations for the Office of Civil Rights (CR)
                                     program and employment complaints. Program complaints are complaints of
                                     discrimination in the award or distribution of Federal program benefits.
                                     Employment complaints are ones of discrimination in the hiring, promoting,
                                     or retaining of employees. Overall, we concluded that CR has strengthened its
                                     controls by implementing the agreed upon corrective actions for 22 of our 43
                                     prior recommendations. However, we found that CR did not institute
                                     management controls to monitor corrective actions or report actions taken to
                                     the Office of the Chief Financial Officer (OCFO).

                                     Operations at CR have undergone major changes since the release of our first
                                     report in February 1997. These changes include significant staff turnover,
                                     redesign of the agency’s operations, and the installation of the first Assistant
                                     Secretary for Civil Rights at the U.S. Department of Agriculture (USDA). CR
                                     overlooked the audit liaison function during its period of major changes. That
                                     is, while an individual had been assigned the audit liaison responsibilities on
                                     paper, the implementation of agreed upon corrective actions was not
                                     incorporated into the day-to-day operations. Departmental regulation 1
                                     establishes the audit liaison function as a critical management control to
                                     ensure that agencies take corrective actions on weaknesses identified by OIG
                                     audits.

                                     CR has the responsibility to develop civil rights policy, to provide
                                     coordination and leadership for equal opportunity and civil rights, to provide
                                     technical assistance and training to USDA agencies, to enforce compliance
                                     with applicable regulations, and to investigate and resolve complaints in
                                     USDA employment and in programs operated or assisted by USDA.

                                     From February 1997 to March 2000, OIG has issued five reports regarding
                                     program complaints. These reports described CR’s efforts to process the
                                     complaints, reduce the complaints backlog, implement settlement agreements,
                                     and respond to our recommendations In March 2000, we issued our first
                                     report on CR’s processing of employment complaints, which highlighted
                                     weaknesses in CR’s operating environment for tracking its complaint
                                     inventory, reporting its performance, processing complaints, and working
                                     with other USDA agencies (see Exhibit A).

                                     Our current work analyzed our 43 prior recommendations to CR that focused
                                     on the agency’s management and oversight of program and employment
1
    Departmental Regulation (DR) No. 1720-001, Audit Followup and Management Decision, dated April 22, 2002.

USDA/OIG-AUDIT No. 60016-01-Hy                                                                                      i
                                      complaints. We found that CR did not respond to critical prior
                                      recommendations, because the role of the audit liaison had not been executed.
                                      An audit liaison had been designated, but we found this individual was not
                                      responsible for monitoring corrective actions or reporting actions
                                      implemented to OCFO. As a result, CR could not readily substantiate the
                                      actions taken for the 43 prior recommendations.

                                      Departmental regulation 2 requires agencies to reach agreement with OIG on
                                      the corrective actions to take in response to audit recommendations. Agencies
                                      are also required to provide an audit followup process that encourages timely
                                      completion and reporting on the status of corrective actions to OCFO.

                                      For 3 of the 43 prior recommendations, we found that agreement between CR
                                      and OIG has not been reached on the corrective actions to take (see Exhibit
                                      B). For example, we continue to work with CR to reach agreement on the
                                      recommendation that CR include in its procedures a requirement to document
                                      the computation behind its awards for compensatory damages, programmatic
                                      relief, and attorney fees. In CR’s responses to this recommendation since
                                      January 2000, the agency agreed to include the Office of the General Counsel
                                      (OGC) in the process of drafting and clearing these procedures. CR finalized
                                      the procedures in September 2004, but did not clear them through OGC. We
                                      cannot reach agreement on the corrective action for this recommendation until
                                      the procedures have been cleared by OGC.

                                      We also found that CR has not implemented the agreed-upon corrective
                                      actions for 18 of the 43 prior recommendations. For example, our first report
                                      in February 1997 included a recommendation that agencies develop a review
                                      system to evaluate civil rights compliance at all agency levels. CR developed
                                      the review guide and agreed to complete evaluations of 13 agencies between
                                      fiscal years 2002 and 2004. As part of our current review, we found that CR
                                      has used the guide to evaluate 3 of the 13 agencies. CR needs to complete the
                                      agreed upon evaluations of the remaining 10 agencies.

                                      For the remaining 22 recommendations, we concluded that the agreed upon
                                      corrective actions had been implemented. However, CR had reported the
                                      implementation of corrective action to OCFO for only 1 of the 22
                                      recommendations. 3 The corrective actions implemented included such things
                                      as (1) assuming control of the Farm Service Agency (FSA) program
                                      complaint system and evaluating the adequacy of FSA’s civil rights staffing
                                      to carry out its civil rights mandate and (2) placing a high priority on hiring
                                      CR managers who have a strong background in civil rights and knowledge of
                                      USDA programs and delivery systems.


2
    DR No. 1720-001, Audit Followup and Management Decision, dated April 22, 2002.
3
    Subsequent to our audit fieldwork, CR reported the implementation of corrective action to OCFO for an additional three recommendations. OCFO
    accepted final action on these recommendations on May 20, 2005.

USDA/OIG-AUDIT No. 60016-01-Hy                                                                                                                     ii
                      We did not fully evaluate CR’s organizational structure for processing
                      program and employment complaints, because USDA's civil rights functions
                      underwent major restructuring when the Assistant Secretary for Civil Rights
                      was sworn in April 2003. The Assistant Secretary for Civil Rights established
                      a temporary organizational structure to facilitate the elimination of the
                      backlog of civil rights complaints. We found that the temporary structure was
                      designed to facilitate the elimination of the backlog and address some
                      concerns made in our prior recommendations. CR’s organizational structure
                      has not been finalized. According to CR officials, the CR reorganization plan
                      was conditionally approved by USDA officials in July 2005.

Recommendations
In Brief              CR needs to designate an individual to carry out the responsibilities for audit
                      followup, implement a system of controls to monitor corrective actions, and
                      report the implementation of these actions to OCFO.

Agency Responses CR agreed with the reports’s recommendations. We have incorporated the
                 agency’s response in the Findings and Recommendations section of this
                 report, along with the OIG position. The response is included as Exhibit C.

OIG Position          Based on the response, we were able to reach management decision on the
                      report’s three recommendations.




USDA/OIG-AUDIT No. 60016-01-Hy                                                                     iii
Abbreviations Used in This Report

C.F.R.            Code of Federal Regulations
DR                Departmental Regulation
EEO               Equal Employment Opportunity
EEOC              Equal Employment Opportunity Commission
FAD               Final Agency Decision
FSA               Farm Service Agency
MOU               Memorandum Of Understanding
OCFO              Office of the Chief Financial Officer
CR                Office of Civil Rights
OGC               Office of the General Counsel
OHRM              Office of Human Resources Management
OIG               Office of Inspector General
ROI               Report of Investigation
Secretary         Secretary of Agriculture
TAAD              Tracking Applications and Analysis Division
USDA              U.S. Department of Agriculture




USDA/OIG-AUDIT No. 60016-01-Hy                                  iv
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv
Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

        Section 1. Implementation of Prior Audit Recommendations ................................................. 4

            Finding 1          Audit Liaison Responsibilities Not Fully Executed............................................... 4
                                    Recommendation 1 ........................................................................................ 14
                                    Recommendation 2 ........................................................................................ 14
                                    Recommendation 3 ........................................................................................ 15
Scope and Methodology........................................................................................................................ 16

Exhibit A – Prior OIG Reports on Civil Rights ................................................................................. 17

Exhibit B – Followup on OIG’s 43 Prior Recommendations............................................................ 18

Exhibit C – Agency Response .............................................................................................................. 25




USDA/OIG-AUDIT No. 60016-01-Hy                                                                                                                    v
Background and Objectives
Background                           The U. S. Department of Agriculture’s (USDA) Office of Civil Rights (CR) is
                                     responsible for resolving all complaints of discrimination that are made
                                     against USDA. These complaints generally fall into two main categories:
                                     (1) complaints of discrimination in the award or distribution of Federal
                                     program benefits (program complaints) and (2) complaints of discrimination
                                     in the hiring, promoting, or retaining of employees (employment complaints).
                                     The Civil Rights Act of 1964 prohibits discrimination in Federal programs
                                     and employment.

                                     Title VI of the Civil Rights Act of 1964 4 states, “No person in the United
                                     States shall, on the ground of race, color, or national origin, be excluded from
                                     participation in, be denied the benefits of, or be subjected to discrimination
                                     under any program or activity receiving Federal financial assistance.”
                                     Program discrimination complaints are processed under regulations found in
                                     Title 7 Code of Federal Regulations (C.F.R.), Part 15-Nondiscrimination. 5

                                     Title VII of the Civil Rights Act of 1964, 6 as amended, prohibits employment
                                     discrimination based on race, color, religion, sex, or national origin.
                                     Employment discrimination complaints are processed under the Equal
                                     Employment Opportunity Commission (EEOC) regulations found in
                                     Title 29 C.F.R., Part 1614-Federal Sector Equal Employment Opportunity
                                     (EEO). 7

                                     From February 1997 to March 2000, the Office of Inspector General (OIG)
                                     has issued five reports regarding program complaints, which have reported on
                                     CR’s efforts to process the complaints, reduce the complaints backlog,
                                     implement settlement agreements, and respond to our recommendations (see
                                     Exhibit A). In March 2000, we reported on CR’s effectiveness in responding
                                     to recommendations made by OIG to improve the efficiency of CR’s process
                                     for resolving complaints of discrimination in USDA programs. We concluded
                                     that CR’s original backlog of program complaints had been substantially
                                     cleared; however, concerns remained about unresolved backlog cases and
                                     about settlement agreements used to clear cases. We also questioned the
                                     adequacy of corrective actions implemented by CR to ensure complaints were
                                     processed with due care. Finally, we concluded that CR needed to improve
                                     the intake process of current cases.

                                     In March 2000, we issued our first report on CR’s processing of employment
                                     complaints (see Exhibit A). In this report, we concluded that CR’s systems to
                                     track its complaint inventory were unreliable and CR’s representation of its
4
    Subchapter V-Federally Assisted Program, Section 2000d.
5
    7 C.F.R. Part 15 revised January 1, 2004.
6
    Section 2000e, dated July 2, 1964.
7
    29 C.F.R. Part 1614 revised July 1, 2003.

USDA/OIG-AUDIT No. 60016-01-Hy                                                                                      1
                   activity did not reflect actual performance. CR’s management practices
                   prevented the agency from processing complaints with due care and from
                   resolving them within required timeframes. We found that CR needed to
                   strengthen its relationship with other USDA agencies to improve complaints
                   processing. Finally, CR needed separate controls for complaints made against
                   CR management.

                   In both reports issued in March 2000, we recommended that CR develop and
                   implement a management plan to address the areas of effective leadership,
                   changing organizational culture, customer focus, process improvement, and
                   reengineering, with emphasis on long-term planning. In our opinion, these
                   management areas were essential to the successful operation of CR. In
                   response to our recommendation, CR developed a long-term improvement
                   plan, which was approved by the Assistant Secretary for Administration in
                   October 2000. CR worked to implement this plan, with specific tasks to be
                   completed during the next 3 years.

                   The Secretary of Agriculture’s (Secretary) Memorandum 1030-57, dated
                   March 7, 2003, restructured USDA’s civil rights functions. This
                   memorandum gave the Assistant Secretary for Civil Rights the full authority
                   and responsibility for leadership and oversight of USDA civil rights, EEO,
                   outreach, alternative dispute resolution, diversity councils, and the USDA
                   1890 Initiative. Effective upon the date of appointment of the first Assistant
                   Secretary for Civil Rights and all its functions transferred from the Assistant
                   Secretary for Administration to the Assistant Secretary for Civil Rights. The
                   Director of CR has full responsibility for investigating, adjudicating, and
                   resolving complaints of discrimination arising out of USDA employment
                   activities or in the context of federally-assisted or federally-conducted
                   programs, including complaints made by USDA employees, applicants for
                   employment, and USDA program participants and customers.

                   In April 2003, the Secretary swore in the first Assistant Secretary for Civil
                   Rights. In October 2003, the Assistant Secretary for Civil Rights issued
                   13 initiatives to address the major challenges facing USDA. According to CR
                   officials, the implementation of the 13 initiatives replaced the implementation
                   of the long-term improvement plan. The challenges and initiatives were
                   classified as follows:

                   Challenges                                Initiatives
                                   1.   Consolidation of Staff Offices with CR Focus
                    Structural
                                   2.   Realignment of Personnel and Functions in CR
                    Systems        3.   CR Enterprise System
                    Procedural     4.   Intradepartmental Relations
                    Operational    5.   Improving Customer Service
                    Operational    6.   Complaint Inventory Reduction (Program and
                                        Employment)

USDA/OIG-AUDIT No. 60016-01-Hy                                                                   2
                   Challenges                             Initiatives
                                  7. Increasing Informal EEO Complaint Resolution Rates
                                  8. Public Awareness Campaign
                                  9. Prevention of Program Complaints
                                  10. Prevention of EEO Complaints
                                  11. Implementation of the NoFEAR Act
                   Accountability
                                  12. Implementing an Accountability Policy in Personnel
                                      Actions
                                  13. Establishing an Annual Civil Rights Forum

Objectives         Our objectives were to (1) identify and evaluate the structure and controls
                   over CR’s program and employment complaints and (2) evaluate CR’s
                   implementation of our 43 prior recommendations.

                   To accomplish the objectives, we performed fieldwork at CR and the Office
                   of the Chief Financial Officer (OCFO) in Washington, D.C. Our work
                   covered CR’s current policies and procedures, CR’s actions to implement our
                   prior audit recommendations, and the agency’s actions to implement the
                   13 initiatives proposed by the Assistant Secretary for Civil Rights in
                   October 2003. (See Scope and Methodology for details.)




USDA/OIG-AUDIT No. 60016-01-Hy                                                               3
Findings and Recommendations
Section 1. Implementation of Prior Audit Recommendations



Finding 1                          Audit Liaison Responsibilities Not Fully Executed

                                    CR did not respond to critical prior recommendations, because the role of the
                                    audit liaison had not been executed. An audit liaison had been designated, but
                                    we found this individual was not responsible for monitoring corrective actions
                                    or reporting actions implemented to the OCFO. As a result, CR could not
                                    readily substantiate the actions taken for the 43 prior recommendations we
                                    reviewed.

                                    Departmental regulation 8 requires agencies to reach agreement with the OIG
                                    on the corrective actions to take in response to audit recommendations. The
                                    agreement is known as management decision. Agencies are also required to
                                    provide an audit followup process that encourages timely completion and
                                    reporting on the status of corrective actions to OCFO. An agency audit liaison
                                    official is designated to implement these responsibilities. Some of the agency
                                    audit liaison official’s specific responsibilities include (1) instituting systems
                                    to monitor and track OIG audit recommendations, (2) ensuring management
                                    decisions are reached in a timely manner, (3) ensuring corrective actions are
                                    implemented, and (4) providing the appropriate documentation to OCFO.

                                    Our current work analyzed 43 prior recommendations to CR that focused on
                                    the agency’s management and oversight of program and employment
                                    complaints. We found that management decisions have not been reached on
                                    3 recommendations and CR has not implemented the agreed-upon corrective
                                    actions for 18 recommendations. For the remaining 22 recommendations, we
                                    concluded that the agreed upon corrective actions had been implemented.
                                    However, CR had reported the implementation of corrective action to OCFO
                                    for only 1 of the 22 recommendations (see Exhibit B).

                                    Recommendations Without Management Decision

                                    We found that agreement between CR and OIG has not been reached on the
                                    corrective action to respond to 3 of the 43 prior recommendations. These
                                    three recommendations were included in the two reports 9 that were issued in
                                    March 2000. One recommendation was included in the report on the
                                    management of employment complaints and two recommendations were
                                    included in our followup report on program complaints. We continue to work
                                    with CR to reach management decision on these recommendations.

8
    DR No. 1720-001, Audit Followup and Management Decision, dated April 22, 2002.
9
    Status of the Implementation of Recommendations Made in Prior Evaluations of Program Complaints (Audit Report No. 60801-04-Hq, March 2000),
    and Management of Employment Complaints (Audit Report No. 60801-03-Hq, March 2000)

USDA/OIG-AUDIT No. 60016-01-Hy                                                                                                               4
                   (1) Employment Complaints. In March 2000, we reported that CR’s tracking
                       system was not supported by its case files. As a result, we recommended
                       that the Secretary direct CR to perform a document-by-document sweep
                       of its employment complaints case files to ensure that all documentation
                       is accounted for and that the documentation in the files reflects the status
                       of each case (Recommendation 3). In our prior audit, we considered CR’s
                       document-by-document sweep of case files to be one of the most
                       significant areas since we found that the case files did not tell the story of
                       the complaint.

                      As part of our current review, we determined that CR’s initiative to
                      reduce the inventory of complaints should address the concern we
                      previously reported. The action plan to implement this initiative required
                      all files to be returned to the file room for a comprehensive internal
                      review, which included a document-by-document sweep. To reach
                      management decision, CR needs to provide evidence that they performed
                      a document-by-document sweep of its case files in executing the initiative
                      to reduce the inventory of complaints.

                   (2) Program Complaints. Our March 2000 audit report comprised a review
                       of corrective actions taken in response to 4 prior reviews and the resulting
                       54 recommendations made to CR. In that report, we noted that CR had
                       been slow to address our prior recommendations; some of the unresolved
                       issues had been raised as long ago as our Phase I review in February
                       1997. The results of our current review demonstrate that management
                       decisions have not been reached on two of the report’s recommendations.

                      a. Standard Operating Procedures. We recommended that the Secretary
                         direct CR to include in its standard operating procedures a
                         requirement to document the computation behind its awards of
                         compensatory damages, programmatic relief, and attorney’s fees in
                         accordance with the legal opinion set forth by the Department of
                         Justice’s Office of Legal Counsel. In addition, CR should submit this
                         documentation to Office of the General Counsel (OGC) as part of its
                         legal sufficiency review, in accordance with the Secretary’s
                         August 30, 1999, memorandum (Recommendation 3). In CR’s
                         responses to this recommendation since January 2000, the agency
                         agreed to include OGC in the process of drafting and clearing its
                         standard operating procedures.

                          CR stated that the standard operating procedures were finalized on
                          September 15, 2004. However, on December 16, 2004, OGC officials
                          informed us that OGC had not approved the standard operating
                          procedures. Since OGC is part of the clearance process, we cannot



USDA/OIG-AUDIT No. 60016-01-Hy                                                                      5
                         accept management decision until the procedures have been cleared
                         by OGC.

                      b. Prior Recommendations from Earlier Reviews. We recommended
                         that the Secretary direct CR to complete all actions necessary to
                         implement 17 recommendations from 3 of our prior reports within
                         60 days of issuance of our report in March 2000
                         (Recommendation 7). These 17 recommendations originated from
                         work we reported as long ago as our Phase I review in February 1997.
                         Due to CR’s lack of action, we were concerned that CR may not have
                         been providing due care when processing complaints alleging
                         discrimination in USDA programs. As a result, we decided to not
                         accept management decision on Recommendation 7 until CR
                         provided sufficient evidence that the 17 prior recommendations had
                         been implemented.

                         As part of our current review, we found that CR had implemented
                         15 of the 17 prior recommendations; however, the agency had not
                         requested closure from OCFO. To close these recommendations, CR
                         needs to provide OCFO with the documentation supporting the
                         implementation of these 15 recommendations. Our audit tests
                         disclosed that 2 of the 17 prior recommendations have not been
                         implemented.

                         1. Memorandum of Understanding (MOU). For one unimplemented
                            prior recommendation, CR agreed to amend the MOU with the
                            U.S. Department of Housing and Urban Development to ensure
                            that all future complaints against USDA employees are forwarded
                            to CR. Management decision on this recommendation was
                            reached on February 1, 2005, after CR officials reported that the
                            MOU was in the internal USDA clearance process. CR officials
                            estimated the MOU would clear USDA’s review in the next
                            6 months. To close this recommendation, CR needs to provide
                            OCFO with the MOU once it clears the USDA clearance process.

                         2. Standard Operating Procedures. For the second unimplemented
                            prior recommendation, CR agreed to develop standard operating
                            procedures regarding the negotiation of settlement agreements. As
                            noted above for Recommendation 3, these procedures have not
                            been finalized. To reach management decision, the standard
                            operating procedures must complete the clearance process and be
                            finalized.




USDA/OIG-AUDIT No. 60016-01-Hy                                                              6
                                      Recommendations Not Implemented

                                      We found that agreed-upon corrective actions have not been implemented for
                                      18 of the 43 prior recommendations. Closure on these recommendations
                                      cannot be achieved until the corrective actions are implemented. One
                                      recommendation was included in the report 10 issued in February 1997, which
                                      addressed concerns about the effectiveness of USDA’s work with socially
                                      disadvantaged and minority farmers and ranchers. The remaining
                                      17 recommendations were included in the 2 reports that were issued
                                      March 2000. Eleven of the recommendations were included in the report on
                                      the management of employment complaints and six recommendations were
                                      included in our followup report on program complaints.

                                       (1) Management Reviews. Our February 1997 report included a
                                           recommendation that agencies develop a comprehensive management
                                           evaluation review system designed to evaluate civil rights compliance at
                                           all agency levels (Recommendation 7). CR developed the comprehensive
                                           management evaluation guide and agreed to complete evaluations of
                                           13 agencies between fiscal years 2002 and 2004. Management decision
                                           was reached on March 9, 2001. To close this recommendation, CR
                                           needed to provide OCFO with the copies of CR’s review reports of the
                                           agencies and the agency’s corrective actions when applicable.

                                            Our audit tests disclosed that CR has developed the comprehensive
                                            management evaluation guide, but this guide has only been used in
                                            evaluating 3 of the 13 agencies. CR needs to complete the agreed upon
                                            evaluations of the remaining 10 agencies.

                                       (2) Employment Complaints. Our March 2000 audit report on employment
                                           complaints encompassed a review of CR’s controls for processing
                                           employment complaints. In that report, we concluded that CR’s systems
                                           to track its complaint inventory were unreliable and CR’s representation
                                           of its activity did not reflect actual performance. CR’s management
                                           practices prevented the agency from processing complaints with due care
                                           and from resolving them within required timeframes. We also found that
                                           CR needed to strengthen its relationship with other USDA agencies to
                                           improve complaints processing.

                                           a. Recommendations Connected with CR’s 13 Initiatives. The Assistant
                                              Secretary for Civil Rights issued 13 initiatives to address the major
                                              challenges facing USDA in October 2003. The major challenges were
                                              in the areas of structure, systems, procedures, operations, and
                                              accountability. CR plans to execute these initiatives by
                                              September 30, 2005.


10
     Evaluation Report for the Secretary on CR Issues—Phase I (Report No. 50801-02-Hq (1), February 1997)

USDA/OIG-AUDIT No. 60016-01-Hy                                                                                    7
                                                 As part of our current review, we determined that when executed, the
                                                 13 initiatives should address 10 of the 11 unimplemented
                                                 recommendations 11 from our March 2000 report on employment
                                                 complaints. These 10 recommendations were intended to address
                                                 aspects of CR’s operating environment including the agency’s
                                                 tracking of its complaint inventory, reporting of its performance,
                                                 processing of complaints, and working relationship with other USDA
                                                 agencies.

                                                 Management decisions have been reached on each of these
                                                 10 recommendations. The corrective actions agreed to, however, do
                                                 not reference the execution of the 13 initiatives for achieving closure.
                                                 CR needs to request a change in management decision from OCFO for
                                                 these 10 recommendations. The request for changes in management
                                                 decision should detail the specific actions taken as part of the
                                                 13 initiatives to address the 10 recommendations.

                                            b. Recommendation Not Connected with CR’s 13 Initiatives. In our
                                               March 2000 report, we concluded, in part, that CR’s relations with
                                               other USDA agencies had deteriorated. One of the recommendations
                                               required CR to publish a current organization chart and points of
                                               contact phone listing, which show the names of staff personnel and
                                               their areas of responsibility. Each time CR reorganizes, an updated list
                                               should be published (Recommendation 18). In response to our
                                               recommendation, CR officials agreed to keep this information updated
                                               on its website and to assign the agency’s Tracking Applications and
                                               Analysis Division (TAAD) the responsibility for ensuring this
                                               information is updated when needed. Management decision on this
                                               recommendation was reached on January 12, 2001. To close this
                                               recommendation, CR should provide OCFO with documentation that
                                               TAAD is aware of its new responsibility and a copy of the current
                                               organization chart.

                                                 As part of our current review, we found that the organization chart and
                                                 points of contact phone listing did not reflect the agency’s temporary
                                                 agency structure that was designed to facilitate the elimination of the
                                                 backlog of civil rights complaints. According to the Associate
                                                 Assistant Secretary for Civil Rights, the backlog of civil rights
                                                 complaints was eliminated in September 2004. CR officials explained
                                                 that the Assistant Secretary for Civil Rights submitted a reorganization
                                                 plan that was conditionally approved by USDA officials in July 2005.




11
     Audit Report No. 60801-03-Hq, Recommendations 5, 9, 10, 11, 12, 13, 14, 17, 19, and 20.

USDA/OIG-AUDIT No. 60016-01-Hy                                                                                          8
                         CR needs to provide OCFO with the organizational chart reflecting
                         the approved reorganization and the point of contact phone listing. CR
                         also needs to provide OCFO with documentation that TAAD is aware
                         of its responsibility to update this information on CR’s website when
                         needed.

                   (3) Program Complaints. Our March 2000 audit report on program
                       complaints comprised a review of corrective actions taken in response to
                       4 prior reviews and the resulting 54 recommendations made to CR. In that
                       report, we noted that CR had been slow to address our prior
                       recommendations; some of the unresolved issues had been raised as long
                       ago as our Phase I review in February 1997. The results of our current
                       review demonstrate that progress has been made, but that lingering issues
                       still need to be dealt with.

                      a. Resolution of Eight Cases. In March 2000, we recommended that the
                         Secretary grant CR the authority to use an abbreviated system and
                         forego investigations to resolve the eight cases that had not been
                         investigated (Recommendation 2). Management decision on this
                         recommendation was reached on August 28, 2000.

                         Our audit tests disclosed that CR appropriately closed seven of the
                         eight cases. CR, however, has not been able to locate the eighth file.
                         CR has not requested closure from OCFO for this recommendation.
                         To do so, CR needs to provide OCFO with documentation on the
                         resolution of the eight cases. If the eighth file cannot be located, CR
                         needs to provide OCFO the methodology employed in attempting to
                         locate the file and the reasons why additional efforts to locate the file
                         are not warranted.

                      b. Find 83 Missing Files. In March 2000, we recommended that the
                         Secretary direct CR to find the 83 missing files and determine their
                         status (Recommendation 5). Management decision on this
                         recommendation was reached on March 10, 2000.

                         CR officials did not assign an individual the specific tasks of locating
                         the 83 missing files and determining their status. This lack of action
                         was not identified, because CR assigned no one the responsibility of
                         monitoring the implementation of audit recommendations. As part of
                         our current review, we attempted to locate the 83 missing files through
                         an inventory of the file room. However, we were only able to locate
                         71 of the files.

                         CR has not requested closure from OCFO for this recommendation.
                         To do so, CR needs to provide OCFO with documentation that CR
                         located the 83 missing files and determined their status. If the

USDA/OIG-AUDIT No. 60016-01-Hy                                                                   9
                                               12 outstanding files cannot be located, CR needs to provide OCFO the
                                               methodology employed in attempting to locate the files and the
                                               reasons why additional efforts to locate the files are not warranted.

                                          c. Incorrectly Reported Recommendations.       In March 2000, we
                                             recommended that the Secretary direct CR to immediately develop a
                                             corrective action plan to implement five recommendations CR
                                             incorrectly reported as implemented (Recommendation 6).
                                             Management decision on this recommendation was reached on
                                             July 12, 2001.

                                               As part of our current review, we found that CR implemented four of
                                               the five prior recommendations. However, CR had not requested
                                               closure from OCFO on these recommendations. To do so, CR needs to
                                               provide OCFO with the documentation supporting the implementation
                                               of these four recommendations.

                                               The fifth recommendation included with Recommendation 6 was from
                                               the report 12 we issued in September 1998. In that report, we
                                               recommended that the Secretary direct CR to find the 40 missing files
                                               (Recommendation 12b). In response to our recommendation, CR
                                               located 32 of the missing files and reconstructed an additional 7 based
                                               on the copy of the files maintained by the USDA agencies involved
                                               with the complaints. The last complaint was carried as an incomplete
                                               complaint, according to the agency, and thus no file was created.
                                               Management decision on this recommendation was reached on
                                               August 28, 2000.

                                               As part of our current review, we tested whether the 40 files that could
                                               not be found during our prior review were filed in CR’s file room and
                                               recorded in CR’s information system. Our audit tests disclosed that
                                               31 of the 40 files were appropriately filed and recorded. We found that
                                               6 of the 40 files were recorded in CR’s information system, but the
                                               physical file could not be located. For the remaining three files, we
                                               could not find either the physical file or a record of the case in the
                                               information system. CR has not requested closure from OCFO on this
                                               recommendation. To do so, CR needs to provide OCFO with
                                               documentation on the resolution of the 40 files. If the nine files cannot
                                               be located, CR needs to provide OCFO with the methodology
                                               employed in attempting to locate the files and the reasons why
                                               additional efforts to locate the files are not warranted.

                                          d. Recommendations Not Fully Addressed.       In March 2000, we
                                             recommended that the Secretary direct CR to complete all actions
                                             necessary to implement 19 recommendations that CR had not

12
     Evaluation of CR’s Efforts to Reduce the Backlog of Program Complaints—Phase V (Report No. 60801-01-Hq, September 1998)

USDA/OIG-AUDIT No. 60016-01-Hy                                                                                                 10
                                                fully addressed within 60 days of issuance of the report,
                                                (Recommendation 8). Management decision on this recommendation
                                                was reached on July 12, 2001.

                                                As part of our current review, we found that CR implemented 16 of
                                                the 19 prior recommendations. However, CR has not requested closure
                                                from OCFO on these recommendations. To do so, CR needs to
                                                provide OCFO with the documentation supporting the implementation
                                                of these 16 recommendations.

                                                (1) Employee Input. In the report issued in September 1998, we
                                                    recommended that CR provide a mechanism for employee input
                                                    into office operations through quality control sessions and other
                                                    forums (Recommendation 10a). In response to this
                                                    recommendation, CR agreed to obtain employee input through
                                                    quarterly meetings with employees, to record the results in
                                                    memoranda to CR management, and to maintain a record of the
                                                    memoranda. Management decision on this recommendation was
                                                    reached on March 9, 2001.

                                                     Discussions with CR officials as part of our current review
                                                     disclosed that CR managers held meetings with their staff.
                                                     However, CR officials were unable to provide any record of the
                                                     matters that were communicated between staff and managers. CR
                                                     has not requested closure from OCFO on this recommendation. To
                                                     do so, CR needs to provide OCFO with the schedule for the
                                                     meetings developed and evidence of the first quarterly meeting.

                                                (2) Disciplinary Actions. In the report 13 issued in March 1999, we
                                                    recommended that the Secretary direct CR, in consultation with
                                                    OGC and the Office of Human Resource Management (OHRM),
                                                    to include a “disciplinary action” section in the Departmental
                                                    regulations as a means of formalizing general requirements and
                                                    procedures applicable to employees cited by complainants in
                                                    program discrimination cases who have acted in an improper
                                                    manner (Recommendation 2a). Management decision on this
                                                    recommendation was reached on February 1, 2000.

                                                     Our audit tests disclosed that this regulation has been drafted and
                                                     is currently with OGC for review. Upon completing the clearance
                                                     process, this regulation will amend DR 4300-006, Section 3c-
                                                     Accountability. CR needs to finalize the regulation. When CR
                                                     requests closure on this recommendation from OCFO, CR should
                                                     provide a copy of the implemented regulation to OCFO.


13
     Evaluation of CR’s Efforts to Implement Civil Rights Settlements—Phase VI, (Report No. 60801-02-Hq, March 1999)

USDA/OIG-AUDIT No. 60016-01-Hy                                                                                         11
                         (3) Disciplinary Actions Taken. In the report issued in March 1999,
                             we recommended that the Secretary direct CR to forward to the
                             OHRM all prior settlement agreement cases in which discipline
                             might be appropriate, and direct CR to follow up on the cases to
                             determine if any actions are taken (Recommendation 2b).
                             Management decision on this recommendation was reached on
                             March 9, 2001.

                             Our audit tests disclosed that CR forwarded 16 cases to OHRM;
                             however, CR did not followup to determine if any disciplinary
                             actions were taken. CR needs to determine whether OHRM
                             recommended disciplinary actions in any of the 16 cases. To close
                             this recommendation, CR should provide OCFO with the results of
                             OHRM’s review of the 16 cases.

                      e. Acknowledgement Letters to Complainants. In March 2000, we
                         recommended that the Secretary direct CR to issue acknowledgement
                         letters to all complainants within 5 days after receipt of the complaint,
                         in accordance with the Departmental manual, (Recommendation 9).
                         In response to this recommendation, CR agreed to assign new
                         personnel as intake specialists and to develop an aging report in CR’s
                         complaint tracking system to identify cases that were over 5 days old
                         and the complainant had not been mailed an acknowledgement letter.
                         Management decision was reached on this recommendation on
                         August 28, 2000. To close this recommendation, CR needed to
                         provide OCFO with evidence the aging report was generated and used
                         by management to ensure acknowledgement letters were mailed
                         within 5 days of being entered into the complaint tracking system.

                         As part of our current review, we determined that CR has not
                         requested closure on this recommendation from OCFO. Moreover, we
                         found that CR is not implementing the corrective action it agreed to in
                         August 2000. We determined that CR is ensuring that
                         acknowledgement letters are mailed within the 5 days through the
                         execution of its initiative to reduce the complaint inventory. One
                         component of the action plan to implement this initiative calls for
                         adherence to all required timeframes. This initiative is 1 of the
                         13 initiatives issued by the Assistant Secretary for Civil Rights in
                         October 2003. CR plans to execute these initiatives by
                         September 30, 2005.

                         Since management decision was reached for this recommendation on
                         August 28, 2000, CR needs to request a change in management
                         decision from OCFO. The request for change in management decision
                         should detail the specific action taken as part of the initiative to
                         address the recommendation.

USDA/OIG-AUDIT No. 60016-01-Hy                                                                 12
                                           f. Cases Improperly Closed. In March 2000, we recommended that the
                                              Secretary direct CR to determine if any other incomplete cases were
                                              improperly closed (Recommendation 18). To address this
                                              recommendation, CR performed a review and took action to address
                                              cases that were improperly closed. However, no one reported this until
                                              we raised the issue as part of this review. This occurred because no
                                              CR official was assigned the responsibility of monitoring that audit
                                              recommendations were implemented.

                                                After questioning during our current review, the information was
                                                formally reported to us on November 5, 2004, and management
                                                decision was reached on February 1, 2005. To close this
                                                recommendation, CR will need to provide OCFO with the results of
                                                its review of improperly closed cases as reported to OIG.

                                      Recommendations Awaiting Closure

                                      CR implemented 22 of the 43 prior audit recommendations (see Exhibit B).
                                      Although CR had implemented these recommendations, CR had not requested
                                      closure from OCFO on 21 of the recommendations. 14 We updated Exhibit B
                                      to reflect this change. Closure was not requested, because the role of the audit
                                      liaison had not been executed. An audit liaison had been designated, but we
                                      found this individual was not responsible for reporting actions implemented
                                      to OCFO. We found that CR provided OCFO with documentation that the
                                      remaining recommendation had been implemented. To validate the corrective
                                      actions taken on the 22 recommendations, we met with the applicable officials
                                      for program and employment complaints and examined the documentation
                                      they maintained to support the recommendations had been implemented.

                                      In summary, CR did not respond to our 43 prior recommendations that
                                      focused on the agency’s management and oversight of program and
                                      employment complaints. This occurred because CR did not institute
                                      management controls to oversee the implementation of audit
                                      recommendations. Accordingly, the agency could not readily substantiate the
                                      corrective actions taken. CR should appoint an individual to carry out the
                                      audit liaison responsibilities of DR No. 1720-001. This individual should
                                      implement a system of controls to monitor corrective actions and report the
                                      implementation of these actions to OCFO.




14
     Subsequent to our audit fieldwork, CR reported the implementation of corrective action to OCFO for an additional three recommendations. These
     recommendations included Recommendations 1, 7, and 21 from Audit Report No. 60801-03-Hq, issued March 2000. OCFO accepted final action on
     these recommendations on May 20, 2005. We updated Exhibit B to reflect this change.

USDA/OIG-AUDIT No. 60016-01-Hy                                                                                                                       13
Recommendation 1

                   Designate an individual to carry out the responsibilities of DR No. 1720-001.

                   Agency Response.

                   An individual has been designated to carry out the responsibilities of
                   DR 1720-001. The individual’s performance elements for fiscal year 2006
                   will include CR compliance with DR 1720-001 as a critical element. A copy
                   of the performance element is attached.

                   OIG Position.

                   We accept CR’s management decision. For final action, CR needs to provide
                   OCFO with a copy of the performance element designating the
                   responsibilities for DR No. 1720-001.

Recommendation 2

                   Implement a system of controls to monitor corrective actions on audit
                   recommendations and report the implementation of these actions to the
                   OCFO.

                   Agency Response.

                   The Assistant Secretary for Civil Rights reorganization plan has been
                   approved. A copy of the plan is attached. One component of the restructure
                   calls for establishment of the Accountability and Resource Management
                   Division, which has responsibility for performing liaison duties in accordance
                   with DR 1720-001. One individual within the Division will have specific
                   performance elements for fiscal year 2006 that include CR compliance with
                   DR 1720-001 as a critical element.

                   Physical files have been established within this Division for each of the
                   outstanding audit recommendations. An e-file has also been created to aid in
                   organizing CR’s response to outstanding audits. Thus, we have completed the
                   actions required in this recommendation.

                   OIG Position.

                   We accept CR’s management decision. For final action, CR needs to provide
                   OCFO with a copy of the approved reorganization plan and a description of
                   the procedures and controls implemented to monitor and track audit
                   recommendations.



USDA/OIG-AUDIT No. 60016-01-Hy                                                                 14
Recommendation 3

                   Request changes in management decision for the 10 recommendations from
                   our report on employment complaints and the 1 recommendation from our
                   report on program complaints that will be addressed by CR’s 13 initiatives.
                   The request for changes in management decision should detail the specific
                   actions taken as part of the initiatives to address the 11 recommendations.

                   Agency Response.

                   The requested changes in management decision for the 10 recommendations
                   from OIG’s report on employment complaints and the 1 recommendation
                   from the report on program complaints addressed by CR’s 13 initiatives will
                   detail the specific actions taken as part of the initiatives to address the
                   11 recommendations. These requests will be submitted no later than
                   September 30, 2005.

                   OIG Position.

                   We accept CR’s management decision. For final action on this
                   recommendation, CR needs to provide OCFO with the agreed upon changes
                   in management decisions for the 11 recommendations. The changes in
                   management decisions will identify the documentation to be provided to
                   OCFO to close the 11 prior recommendations.




USDA/OIG-AUDIT No. 60016-01-Hy                                                             15
Scope and Methodology
                   To accomplish the objective, we performed fieldwork at CR and OCFO in
                   Washington, D.C. Our work covered CR’s current policies and procedures,
                   CR’s actions to implement our prior audit recommendations, and the agency’s
                   actions to implement the 13 initiatives proposed by the Assistant Secretary for
                   Civil Rights in October 2003. Fieldwork was performed from June to
                   October 2004. We updated our understanding of the timing of CR’s
                   reorganization in January 2005 and at our exit briefing in July 2005. Our audit
                   was conducted in accordance with Generally Accepted Government Auditing
                   Standards.

                   CR

                   At CR, we met with program and management officials to obtain an
                   understanding of the actions taken to implement our prior audit
                   recommendations. This included work to understand the relationship between
                   our prior recommendations, the long-term improvement plan, and the
                   13 initiatives proposed by the Assistant Secretary for Civil Rights.

                   We examined the documentation on file at CR to verify the agency’s actions
                   to implement our prior audit recommendations.

                   OCFO

                   We met with OCFO officials to obtain understanding of what documentation
                   CR had submitted to substantiate actions taken on our prior recommendations.




USDA/OIG-AUDIT No. 60016-01-Hy                                                                 16
Exhibit A – Prior OIG Reports on Civil Rights
                                                                                Exhibit A – Page 1 of 1




Reports on Program Complaints

1. Report No. 50801-02-Hq (1), Evaluation Report for the Secretary on Civil Rights Issues—Phase I,
   February 1997

2. Report No. 50801-05-Hq, Implementation of OIG’s Recommendations – Department’s Civil
   Rights Complaint System and the Direct Farm Loan Program—Phase IV, March 1998

3. Report No. 60801-01-Hq, Evaluation of CR Efforts to Reduce the Backlog of Program
   Complaints—Phase V, September 1998

4. Report No. 60801-02-Hq, Evaluations          of   CR   Efforts   to   Implement   Civil    Rights
   Settlements—Phase VI, March 1999

5. Report No. 60801-04-Hq, Status of the Implementation of Recommendations Made in Prior
   Evaluations of Program Complaints—Phase VII, March 2000



Report on Employment Complaints

   Report No. 60801-03-Hq, Management of Employment Complaints—Phase VII, March 2000




USDA/OIG-AUDIT No. 60016-01-Hy                                                                     17
Exhibit B – Followup on OIG’s 43 Prior Recommendations
                                                                                      Exhibit B – Page 1 of 7




Rec.                43 Prior                     Related to Addressed by Management Recommendation Sent to
                                                   Prior
 No.           Recommendations                     Rec.     13 Initiatives Decision   Implemented  OCFO
          Addressed by this Report                             Yes/No      Yes/No       Yes/No     Yes/No
PROGRAM COMPLAINTS: Report No. 50801-02-Hq (1), Phase I
 1b  Immediately assume control of the FSA                       No          Yes          Yes       Yes
     program complaint system and evaluate
     the adequacy of FSA’s civil rights
     staffing to carry out its civil rights
     mandate.
  7  Agencies        should      develop       a                 No          Yes          No         No
     comprehensive management evaluation
     review system designed to evaluate civil
     rights compliance at all agency levels.
PROGRAM COMPLAINTS: Report No. 60801-01-Hq, Phase V
  8  Require the CR Director to place high                       No          Yes          Yes        No
     priority on hiring CR managers who have
     a strong background in civil rights and
     knowledge of USDA programs and
     delivery systems.
PROGRAM COMPLAINTS: Report No. 60801-02-Hq, Phase VI
 4a  Require the CR Director to instruct FSA                     No          Yes          Yes        No
     to obtain an OGC opinion on whether the
     one complainant is eligible for priority
     consideration for inventory property
     under the definition of a Socially
     Disadvantaged Applicant; and if so,
     immediately notify the one complainant
     of the availability of inventory property
     in accordance with his settlement
     agreement.
EMPLOYMENT COMPLAINTS: Audit Report No. 60801-03-Hq, Phase VII
  1  Direct CR to locate the 18 missing case                     No          Yes          Yes       Yes
     files.
  2  Direct CR to review and determine the                       No          Yes          Yes        No
     proper status of the 87 open complaints
     we identified as closed, and the 2 closed
     complaints we identified as open.
  3  Direct CR to perform a document-by-                         Yes         No           No         No
     document sweep of its employment
     complaints case files to ensure that all
     documentation is accounted for and that
     the documentation in the files reflects the
     status of each case.




USDA/OIG-AUDIT No. 60016-01-Hy                                                                             18
                                                                                               Page 2 of 7




Rec.                  43 Prior                   Related to Addressed by Management Recommendation Sent to
                                                   Prior
No.              Recommendations                   Rec.     13 Initiatives Decision   Implemented  OCFO
            Addressed by this Report                           Yes/No      Yes/No       Yes/No     Yes/No
 4     Direct CR to immediately reconcile its                    No          Yes          Yes        No
       case files with those of the agencies. CR
       should make the appropriate changes to
       its tracking system based on these
       reconciliations.
 5     Direct CR to modify DR 4300-7 to                          Yes         Yes          No         No
       require agencies and CR to reconcile
       their caseloads on a monthly basis.
 6     Direct CR to implement timely                       No           Yes             Yes          No
       management controls to ensure timely
       and accurate reconciliation between CR
       and the agencies.
 7     Direct CR to immediately reconcile its              No           Yes             Yes          Yes
       cases with those listed by the EEOC as
       pending hearings and appeals.
 8     Direct CR to reconcile its cases on a               No           Yes             Yes          No
       quarterly basis with those cases listed by
       EEOC as pending appeal and hearings.
 9     Direct CR, when presenting data                     Yes          Yes             No           No
       regarding civil rights activities, to
       provide full disclosure about the data,
       methodology on how the data is used,
       and what exactly it means, and to be
       consistent in reporting over time.
 10    Direct     CR     to     expedite      the          Yes          Yes             No           No
       implementation of its new employment
       tracking system containing advanced edit
       checks to ensure the integrity of the data
       and providing workflow functions for
       case file management.
 11    Direct CR to maintain the integrity of the          Yes          Yes             No           No
       data in its tracking system by identifying
       suspect data in the system through
       routine searches for anomalies, and by
       assigning someone the responsibility to
       follow up on those suspect cases.




USDA/OIG-AUDIT No. 60016-01-Hy                                                                             19
                                                                                               Page 3 of 7




Rec.                   43 Prior                  Related to Addressed by Management Recommendation Sent to
                                                   Prior
No.              Recommendations                   Rec.     13 Initiatives Decision   Implemented  OCFO
            Addressed by this Report                           Yes/No      Yes/No       Yes/No     Yes/No
 12    Direct CR to discontinue using its                        Yes         Yes          No         No
       database to track case file location, or
       otherwise develop a system that ensures
       accurate case file location that can be
       updated only by those with the authority
       to do so.
 13    Direct CR to cleanse its current database                 Yes         Yes          No         No
       before migrating the information to the
       new EEO tracking system.
 14    Develop a management plan to address                      Yes         Yes          No         No
       issues identified concerning effective
       leadership, changing organizational
       culture, customer focus, processing
       improvement, and reengineering. This
       plan should include the development of a
       workforce planning strategy. The use of a
       management consultant to help develop
       such a plan should be considered.
 15    Develop management controls to ensure                     No          Yes          Yes        No
       the reviews of Report of Investigation’s
       (ROI) and Final Agency Decision’s
       (FAD) are performed thoroughly and
       provide accurate information.
 16    Direct CR to revisit the ROI’s and FAD’s                  No          Yes          Yes        No
       that we found deficient and ensure that
       the complaint in each of these cases has
       been handled with due care.
 17    Direct CR and the civil rights directors of         Yes          Yes             No           No
       USDA agencies to establish and develop
       ways to enhance the working relationship
       between CR and the agencies’ civil rights
       staff.
 18    Direct CR to publish a current                      No           Yes             No           No
       organizational chart and points of contact
       phone listings, which shows the names of
       staff personnel and their areas of
       responsibility. Each time the Department
       reorganizes, an updated list should be
       published.




USDA/OIG-AUDIT No. 60016-01-Hy                                                                            20
                                                                                                Page 4 of 7




Rec.                  43 Prior                    Related to Addressed by Management Recommendation Sent to
                                                    Prior
No.             Recommendations                     Rec.     13 Initiatives Decision   Implemented  OCFO
            Addressed by this Report                            Yes/No      Yes/No       Yes/No     Yes/No
 19    Direct CR to establish and provide                         Yes         Yes          No         No
       guidance on training to the agencies and
       work with agencies to ensure training is
       developed and conducted in accordance
       with regulatory guidance and EEO
       standards.    This      should     include
       identifying and developing EEO training
       needs for agency civil rights personnel.
 20    Direct CR to distribute the notes of                       Yes         Yes          No         No
       monthly meetings with agency civil
       rights directors to facilitate followup
       action.
 21    Direct CR to develop procedures for                        No          Yes          Yes       Yes
       processing in-house complaints. The
       procedures should provide a mechanism
       for processing complaints against the
       Director of CR and the Assistant
       Secretary for Administration outside of
       USDA. There should also be appropriate
       controls on processing the remaining in-
       house complaints to ensure complainants
       are afforded unbiased due care. These
       controls would include adequate
       safeguarding and maintenance of the files
       and database records.
PROGRAM COMPLAINTS: Audit Report No. 60801-04-Hq, Phase VII
 1  Direct CR to resolve the 35 cases               No                   Yes             Yes          No
    remaining from the original backlog with
    all deliberate speed.

 2     Grant CR the authority to use an                     No           Yes             No           No
       abbreviated     system     and     forego
       investigations to resolve the eight cases
       shown as not yet having been
       investigated.




USDA/OIG-AUDIT No. 60016-01-Hy                                                                             21
                                                                                                Page 5 of 7




Rec.                43 Prior                      Related to Addressed by Management Recommendation Sent to
                                                     Prior
No.              Recommendations                      Rec.    13 Initiatives Decision  Implemented  OCFO
            Addressed by this Report                             Yes/No      Yes/No      Yes/No     Yes/No
 3     For future settlement cases, direct CR to                   No          No          No         No
       include in its standard operating
       procedures a requirement to document
       the computations behind its awards of
       compensatory damages, programmatic
       relief, and attorney’s fees in accordance
       with the legal opinion set forth by the
       Department of Justice’s Office of Legal
       Counsel. In addition, CR should submit
       this documentation to OGC as part of its
       legal sufficiency review, in accordance
       with the Secretary’s August 30, 1999,
       memorandum.
 4     Refer all settlement cases to OHRM for                      No          Yes         Yes        No
       consideration of disciplinary action.
 5     Direct CR to find the 83 missing files                      No          Yes         No         No
       and determine their status.
 6     For the five recommendations CR 1c, 2a, 6d,                 No          Yes         No         No
       reported as implemented but that were      11b,  and
       not implemented, direct CR to 12 b
       immediately develop a corrective action (phase V)
       plan. The CR director should be held
       accountable for the implementation of
       this plan.
 7     For the other 17 recommendations CR 1e, 1h, 2,              No          No          No         No
       has not yet addressed, direct CR to        3, 4 (phase
       complete all actions necessary to I), 2b, 3a,
       implement       these    recommendations 3b, 6a, 6b,
       within 60 days of issuance of this report. 6c, 11a,
                                                  11d, 12a,
                                                  15a (phase
                                                  V) and 3a,
                                                  4b (phase
                                                  VI)




USDA/OIG-AUDIT No. 60016-01-Hy                                                                            22
                                                                                                   Page 6 of 7




Rec.                  43 Prior                      Related to Addressed by Management Recommendation Sent to
                                                        Prior
No.          Recommendations                            Rec.    13 Initiatives Decision  Implemented  OCFO
           Addressed by this Report                                Yes/No      Yes/No      Yes/No     Yes/No
 8     For the 19 recommendations CR has not        1c, 1d, 6,       No          Yes         No         No
       yet fully addressed, direct CR to            5 (phase
       complete all actions necessary to            I), 4a, 4b,
       implement     these     recommendations      4c, 5a, 7a,
       within 60 days of issuance of this report.   9a, 9b,
                                                    10a, 11c,
                                                    14a (phase
                                                    V) and 1a,
                                                    1b, 1c, 2a,
                                                    2b (phase
                                                    VI)

 9     Direct CR to issue Acknowledgement                        Yes          Yes           No           No
       Letters to all complainants within 5 days
       after receipt of the complaint, in
       accordance with the Departmental
       manual.
 10    Direct CR to review all remaining open                    No           Yes           Yes          No
       intend-to-file cases and determine
       whether CR had acknowledged all
       complaints; whether any cases should be
       moved forward in the complaint
       resolution process; and whether any have
       been open beyond the established
       timeframe.
 11    Direct     CR     to   standardize   the                  No           Yes           Yes          No
       Acknowledgment Letters so they contain
       all the required information and explain
       what information is needed from the
       complainant.
 12    Direct CR to reclassify the 39 cases as                   No           Yes           Yes          No
       new complaints and move them forward
       in the complaints resolution process.
 13    Direct CR to monitor and report its                       No           Yes           Yes          No
       processing times for incomplete cases in
       order to determine whether it is
       achieving its standard of 30 days to
       process these cases and to identify trends
       and other areas needing immediate
       attention.




USDA/OIG-AUDIT No. 60016-01-Hy                                                                                23
                                                                                                Page 7 of 7




Rec.                43 Prior                      Related to Addressed by Management Recommendation Sent to
                                                    Prior
No.              Recommendations                    Rec.     13 Initiatives Decision   Implemented  OCFO
            Addressed by this Report                            Yes/No      Yes/No       Yes/No     Yes/No
 14    Direct CR to close the 16 incomplete                       No          Yes          Yes        No
       cases that we determined remained open
       beyond the established timeframe.
 15    Direct CR to immediately notify program                    No          Yes          Yes        No
       agencies of all open and closed intend-to-
       file cases (now referred to as “claims” by
       CR) so that proper actions can be taken,
       and ensure that this is routinely done on
       all future cases.
 16    Direct CR to ensure, before closing a                      No          Yes          Yes        No
       case that any complainant who did not
       provide all of the required elements of a
       complaint, or who did not state a
       connection between “basis” and “issue,”
       understands that he or she is required to
       do so.
 17    Direct CR to reopen the 70 cases we                        No          Yes          Yes        No
       determined were improperly closed, and
       to adhere to its documented procedures
       when processing these complaints.
 18    Direct CR to determine if any other                  No           Yes             No           No
       incomplete cases were improperly
       closed.




USDA/OIG-AUDIT No. 60016-01-Hy                                                                             24
Exhibit C – Agency Response
                                 Exhibit C – Page 1 of 2




USDA/OIG-AUDIT No. 60016-01-Hy                      25
                                 Exhibit C – Page 2 of 2




USDA/OIG-AUDIT No. 60016-01-Hy                     26
